<html>
<title> - OVERSIGHT OF THE NUCLEAR REGULATORY COMMISSION</title>
<body><pre>[Senate Hearing 116-12]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 116-12
 
                              OVERSIGHT OF
                   THE NUCLEAR REGULATORY COMMISSION

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 2, 2019

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
  


        Available via the World Wide Web: http://www.govinfo.gov
        
        
                             _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
36-163 PDF                WASHINGTON : 2019              
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED SIXTEENTH CONGRESS
                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE BRAUN, Indiana                  BERNARD SANDERS, Vermont
MIKE ROUNDS, South Dakota            SHELDON WHITEHOUSE, Rhode Island
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
RICHARD SHELBY, Alabama              EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
              
              
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             APRIL 2, 2019
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     3

                               WITNESSES

Svinicki, Kristine, Chairman, U.S. Nuclear Regulatory Commission.     5
    Prepared statement...........................................     7
    Responses to additional questions from:
        Senator Barrasso.........................................    21
        Senator Gillibrand.......................................    52
        Senator Markey...........................................    58
Baran, Jeff, Commissioner, U.S. Nuclear Regulatory Commission....    71
    Prepared statement...........................................    72
    Responses to additional questions from Senator Gillibrand....    73
Burns, Stephen, Commissioner, U.S. Nuclear Regulatory Commission.    74
    Prepared statement...........................................    75
Caputo, Annie, Commissioner, U.S. Nuclear Regulatory Commission..    76
    Prepared statement...........................................    77
Wright, David, Commissioner, U.S. Nuclear Regulatory Commission..    78
    Prepared statement...........................................    79


                             OVERSIGHT OF 
                   THE NUCLEAR REGULATORY COMMISSION

                              ----------                              


                         TUESDAY, APRIL 2, 2019

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Capito, Cramer, Braun, 
Rounds, Ernst, Cardin, Whitehouse, Gillibrand, Markey, and Van 
Hollen.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this hearing to 
order.
    Today's oversight hearing will be looking at the Nuclear 
Regulatory Commission, the NRC, and I welcome all five 
Commissioners here today to the Committee.
    Last May, the Senate confirmed Commissioners Caputo, 
Wright, and Baran. As a result, the Commission now has a full 
slate of five Commissioners for the first time since 2014.
    This morning Commissioners Caputo and Wright will testify 
before Congress for the first time since being confirmed. I 
look forward to the testimony.
    Today also marks the last time that Commissioner Burns will 
be testifying before the Committee. His term concludes this 
summer. Commissioner Burns has served the agency in various 
capacities for over 40 years. A remarkable service. We are very 
grateful.
    You were Chairman from 2015 through 2017, so we just want 
to thank you on behalf of the entire Committee for all of your 
service to the NRC.
    Last week marked 11 years of continuous service as 
Commissioner for Chairman Svinicki. This is unprecedented. So 
far, her tenure as Chairman has been very productive. Last 
September Chairman Svinicki and then-Wyoming Governor Mead 
signed an agreement in Cheyenne, Wyoming. The agreement allows 
the State of Wyoming to license and regulate uranium recovery 
facilities.
    It has been a long time priority for me. Thank you for your 
leadership to assure the agreement was signed in a very timely 
manner.
    Affordable, reliable electricity powers a strong economy. 
Nuclear energy is by far the most reliable carbon-free energy 
source. Nuclear energy also provides more than twice the amount 
of electricity as wind and solar combined. Nuclear power 
provides about 60 percent of our Nation's emissions-free 
energy. If we are serious about climate change, we must be 
serious about expanding our use of nuclear energy.
    In 2018, nuclear energy generated a record breaking amount 
of electricity in the United States. Regrettably, last year's 
record will not be broken again unless we take dramatic action. 
Two nuclear power plants will close this year. An additional 
eight reactors are expected to close between 2020 and 2022. We 
need to work to reverse this trend.
    Shuttering nuclear plants not only reduces the amount of 
dependable energy produced, it also increases a plant's 
regulatory costs since fewer plants are available to fund the 
Commission's work. In this regard, I am pleased the Commission 
has submitted a smaller budget that reflects the reduced 
workload.
    I encourage the Commission to continue to find ways to make 
their work more efficient. For example, the Commission staff 
should focus their efforts on issues of greatest safety 
significance. This would not only reduce budgetary demands, it 
would also allow nuclear reactor operators to focus on the most 
important safety issues.
    Predictable and transparent budgets should align with 
predictable and transparent regulations. The Commission's 
completion of a major rulemaking in January I believe did just 
that. This rulemaking requires nuclear power plants to be 
prepared for an unforeseen emergency. It is an accumulation of 
years of work in response to the 2011 nuclear crisis in Japan. 
I look forward to hearing more about the rulemaking.
    In addition to maintaining predictable requirements for 
existing nuclear reactors, the Commission must also establish 
the rules for new nuclear technologies. That is why I was 
pleased that President Trump signed into law the Nuclear Energy 
Innovation and Modernization Act in January. A number of us 
cosponsored this bipartisan legislation. I cosponsored it, 
along with seven members of our Committee, to help American 
nuclear innovators develop, license, and deploy advanced 
nuclear technologies.
    These new technologies could increase safety, could 
decrease costs, and could reduce nuclear waste. They are also 
necessary to achieve low carbon energy future for our country 
and the world.
    America has always been the global leader in nuclear 
technology. We can't allow our international rivals to surpass 
us. The Commission plays a vital role in this global 
competition. The Commission should prioritize activities to 
advance American nuclear leadership. For example, new and 
upgraded fuel types, known as accident-tolerant fuel, can 
improve safety, make plants more cost efficient, and generate 
less waste. This is a win-win-win.
    While we seek to reestablish American leadership for 
nuclear reactor operation and technology, we must not disregard 
the dire outlook of American uranium production. Last year, two 
American uranium companies petitioned the Department of 
Commerce to consider the national security impacts of uranium 
imports. I support this review.
    The deadline for the Administration's response to the 
petition is approaching. The Administration must take 
meaningful steps to maintain and grow American uranium 
production. Our American uranium industry must not be forced 
out of business due to unfair competition driven by Russia and 
other nations.
    It is also critically important for the Federal Government 
to properly manage and dispose of our Nation's spent nuclear 
fuel and nuclear waste. I am pleased the Commission's budget 
requests $39 million to resume its review of the Yucca Mountain 
site, as required by law. Congress should support this request.
    I would now like to turn to Ranking Member Carper for his 
statement.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman. Thanks for bringing 
us all together.
    It is good to see each of you here before us today.
    Madam Chair, a pleasure.
    And to our former Chairman, I just want to echo the words 
of our Chairman John Barrasso to thank you for a lifetime of 
service to this country.
    He has expressed my thoughts on the need for more carbon-
free electricity--not less--and nuclear has provided anywhere 
from 60 to 70 percent of our carbon-free electricity for some 
time. It is dropping now, as you know, but I think we have an 
opportunity and I think an obligation to try to make sure it 
doesn't drop much further. And if we can somehow reverse that, 
we ought to do so.
    But we are here today to continue our oversight of the 
Nuclear Regulatory Commission and to hear more about the 
President's budget proposal for fiscal year 2020. It is my 
sincere hope that today's hearing is just the beginning of 
other hearings on our Committee's budget over the agencies for 
which we have jurisdiction.
    Since joining this Committee, I have worked closely with 
our colleagues to strengthen the culture of safety, worked 
closely with you to strengthen the culture of safety, and 
within the U.S. nuclear industry itself. In part, due to our 
collective efforts, and thanks to the NRC leadership and the 
Commission's dedicated staff, the NRC continues to be the 
world's gold standard for nuclear regulatory agencies.
    However, we are here to look forward, not look back, and we 
need to ensure that the NRC continues to have the tools that it 
needs to be successful and to be safe. We also need to ensure 
that the NRC's actions taken this year have safety in mind in 
order to ensure that America's nuclear power remains the safest 
in the world.
    Today I am interested in--and I think we are interested 
in--learning whether the President's budget, which I believe 
falls short in a number of areas, will provide the NRC with 
sufficient funding to protect the public, while being 
responsive to the legitimate needs of the industry that is 
being overseen.
    While most any organization needs strong leadership, as I 
like to say, it is always the key to success. I don't care what 
the organization is, leadership is always the key. A dedicated 
work force is certainly helpful, and the appropriate resources 
don't hurt, either.
    I support improving the NRC's efficiency and its 
flexibility to respond to the changes in the nuclear industry; 
however, we cannot cut the agency's budget just for the sake of 
cutting. We must ensure that the NRC has adequate funding to 
continue to attract the best and brightest talents so that the 
agency continues to be the global standard for safety.
    Beyond the budget, I am particularly interested in hearing 
today more about why the NRC decided to change courses 
regarding the post-Fukushima rule. Our nuclear reactors must be 
able to withstand seismic or flooding events, regardless of 
when the reactors were built. Requiring our nuclear reactors, 
most of which were built decades ago, as you know, to withstand 
earthquake and flooding risks beyond the capacity of their 
original design doesn't make much sense to me.
    This issue goes well beyond being able to withstand a 
similar event that occurred in Fukushima. As we continue to see 
the worsening effects of climate change nationwide, our nuclear 
fleet will experience flooding, experience drought and other 
extreme weather more frequently. As we saw a year or two ago in 
Ellicott City, Maryland, not far from here, and recently in the 
Midwest, 1,000-year flooding events are happening every couple 
of years, not every 1,000 years, and we need for our nuclear 
fleet to be prepared for this new climate reality.
    Why the NRC has decided to reverse course from its proposal 
and make these protections voluntary is still unclear to me, 
especially since, according to the NRC's own staff, no one 
asked for this change; not industry, not staff, no one. With 
that said, I look forward to learning more today from the NRC 
about why its members decided to take this approach.
    I am also interested in hearing today how the NRC plans to 
implement changes in the advanced nuclear reactor licensing 
framework, as Congress directed in the recently passed Nuclear 
Energy Innovation and Modernization Act that the Chairman has 
alluded to. This legislation was supported by the Chairman, by 
me, I think many members of our Committee, and it is a good 
legislation.
    I believe that if our country is smart--and we are--we will 
replace older nuclear technology with new technology developed 
right here at home. That includes advances that are safer, 
produce less spent fuel, and are cheaper to build and to 
operate. In doing so, we can reap the economic benefits, along 
with the clean air benefits of a new, advanced nuclear 
electricity generation.
    In closing, let me again reiterate the importance of making 
sure that the NRC has the resources that you need to review 
these new technologies and to ensure that our current nuclear 
fleet remains safe far into the future.
    I want to thank our Commission for being here today. We 
look forward to your testimonies. Welcome.
    I am going to have to slip out for a few minutes, but I 
will be back, and I look forward to a robust round of questions 
and answers.
    Thank you.
    Senator Barrasso. Thank you, Senator Carper.
    We are now going to hear from our witnesses. We will start 
with the Chairman, Kristine Svinicki, and then move to 
Commissioner Jeff Baran, Commissioner Stephen Burns, 
Commissioner Annie Caputo, and Commissioner David Wright.
    We are going to continue with the Committee's practice of a 
5-minute opening statement from Chairman Svinicki and the 2-
minute statements from each of the other Commissioners.
    I want to remind the witnesses that your full testimony 
will be part of the official hearing record.
    Chairman Svinicki, please proceed.

                STATEMENT OF KRISTINE SVINICKI, 
          CHAIRMAN, U.S. NUCLEAR REGULATORY COMMISSION

    Ms. Svinicki. Thank you.
    Good morning, Chairman Barrasso, Ranking Member Carper, and 
Senators Gillibrand and Cramer, and other distinguished members 
of the Committee who may join us. My colleagues and I 
appreciate the opportunity to testify this morning on the U.S. 
NRC's fiscal year 2020 budget request.
    The funding we are requesting provides the resources 
necessary to accomplish our mission to license and regulate the 
civilian use of radioactive materials to ensure adequate 
protection of public health and safety, and to promote the 
common defense and security.
    The NRC's fiscal year 2020 budget request, including 
resources for the NRC's Office of the Inspector General, is 
$921.1 million, which would include 3,062 full-time equivalent 
positions, or FTE. The fiscal year 2020 budget request 
represents an increase of $10.1 million when compared to the 
fiscal year 2019 enacted budget. This requested increase in 
resources is due principally to the inclusion of $38.5 million 
to support licensing activities for the proposed Yucca Mountain 
deep geologic repository for spent fuel and other high level 
radioactive waste.
    The NRC proposes to recover $759.6 million of the requested 
budget from fees assessed to NRC's licensees and applicants. 
This will result in a net appropriation of approximately $161 
million with, again, $38.5 million of that to be derived from 
the Nuclear Waste Fund.
    The NRC has initiated efforts to implement requirements of 
the Nuclear Energy Innovation and Modernization Act and is 
progressing in each area to ensure timely implementation of the 
Act's requirements. The budget also proposes $15.5 million for 
the continued development of a regulatory infrastructure for 
advanced nuclear reactor technologies.
    We are mindful of the importance of the highly skilled 
staff that we have and the need to maintain our expertise while 
our workload continues to evolve. In addition, the NRC's focus 
on transformation and innovation continues. The Commission has 
met with NRC staff and external panels that included the 
nuclear industry, other Federal agencies with ongoing 
innovation efforts, and non-governmental organizations to 
discuss the NRC's staff's efforts, and we have also explored 
broader organizational strategies and innovation perspectives 
from a range of external experts.
    In summary, the fiscal year 2020 budget request reflects 
the NRC's continuing efforts to achieve efficiencies while 
maintaining reasonable assurance of adequate protection of 
public health and safety and safeguarding the security of our 
Nation.
    On behalf of the Commission, thank you for the opportunity 
to appear before you and for the Committee's consistent support 
and oversight of NRC's important mission.
    Before I conclude, I would like to add my recognition and 
thanks to former Chairman Stephen Burns and Commissioner. I 
think of the members of the Commission, I may have known him 
the longest. He was Deputy General Counsel when I joined the 
Commission, was then General Counsel, left for a time, and came 
back and was both my Chairman and my colleagues. I consider him 
a friend. He is a pleasure to work with.
    We all think about the last day we might have on the job, 
but I think if any of us could leave the NRC with the amount of 
respect and esteem that Steve commands throughout the NRC, it 
would be a significant accomplishment.
    So thank you, and I look forward to questions.
    [The prepared statement of Ms. Svinicki follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   

    Senator Barrasso. Thank you, Madam Chairman.
    Commissioner Baran.
    Senator Carper. That was lovely. That was lovely. I hope 
when we leave as members that our colleagues say things about 
us that was as poignant and as meaningful as that. Thank you 
for that.
    Senator Barrasso. Commissioner Baran.

                   STATEMENT OF JEFF BARAN, 
        COMMISSIONER, U.S. NUCLEAR REGULATORY COMMISSION

    Mr. Baran. Thank you for the opportunity to testify today. 
It is wonderful to be here with my colleagues.
    During the past year, NRC received a number of ideas for 
transforming the way we do our work. I would like to briefly 
share my thoughts about how NRC should approach transformation.
    In my view, it makes sense to consider transformational 
change when a new technology challenges NRC's existing 
regulatory approach or when the agency has historically 
struggled to regulate effectively in a particular area. For 
example, a strong case can be made for updating NRC's 
regulations to account for non-light water reactor 
technologies.
    But when a regulatory process has worked well over the 
years, it is better to pursue targeted refinements aimed at 
solving clearly defined problems. Whether NRC is considering a 
major transformational change or a more modest incremental 
change, we must keep our focus squarely on our safety and 
security mission. Transformation at NRC can't be about rolling 
back safety and security standards to save money, and it can't 
be about fewer inspections or weaker oversight. That would take 
NRC in the wrong direction.
    Several of the transformational ideas being discussed 
involve the reactor oversight process. This is NRC's basic 
framework for overseeing the safety of the Nation's nuclear 
power plants. It affects every power reactor in the country. I 
would be wary of making any radical changes to this program 
because it has generally been an effective safety framework.
    One of the proposals I am particularly concerned about is 
to replace some core NRC inspections with self-assessments 
performed by licensees. These baseline inspections are 
essential, and NRC inspectors need to be independently 
conducting them. We should not allow licensees to inspect 
themselves. Doing so would be fundamentally inconsistent with 
our role as an independent nuclear safety regulator.
    To do the best job for the American people, NRC needs to be 
open to new ideas and new approaches. But we also need to 
carefully and thoroughly evaluate the proposed regulatory 
changes to ensure that they will have a positive impact on 
safety. That is our core mission and must remain our top 
priority.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Baran follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Senator Barrasso. Thank you very much, Commissioner Baran.
    Commissioner Burns.

                  STATEMENT OF STEPHEN BURNS, 
        COMMISSIONER, U.S. NUCLEAR REGULATORY COMMISSION

    Mr. Burns. Chairman Barrasso, Ranking Member Carper, and 
other members of this Committee, I appreciate the opportunity 
to testify today, and I also appreciate very much your very 
kind remarks. It has been hard to believe it has been 40 years 
or more, and I want to thank the Chairman for also her eloquent 
statement.
    Senator Carper. Were you in the third grade when you 
started?
    Mr. Burns. Yes, I was in third grade.
    [Laughter.]
    Mr. Burns. Anyway, as noted, in the near future I will 
complete my service as a Commissioner at the NRC. My service 
began at the agency in 1978, when I graduated from law school 
here at George Washington University, and continued from that 
time except for a brief respite at the OECD Nuclear Agency in 
Paris from 2012 to 2014. I am honored that President Obama 
appointed me as Commissioner and designated me as Chairman 
during the last years of his Administration. I am proud to have 
served the NRC and particularly the people I have gotten to 
know who are dedicated to our mission.
    I know there are times when we have had to learn from our 
experience, learn to do better and to improve our performance 
as a regulator, but on the whole I think we hit the mark the 
vast majority of the time in achieving a high level of 
performance and holding the regulated industry accountable. 
This is a better agency today than it was when I walked into it 
in 1978.
    We can always strive to better perform our safety and 
security mission, and to better risk-inform our decisions, but 
the safety and security of the public must always be the 
central focus. Credit belongs largely, again, to the day to day 
work of our dedicated staff in achieving those goals. I 
appreciate their day to day focus on ensuring adequate 
protection to the public.
    Thank you again for the opportunity to appear before you 
and the work you do in oversight of our agency, and I look 
forward to answering any questions you may have.
    Thank you.
    [The prepared statement of Mr. Burns follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Senator Barrasso. Thank you so very much for your testimony 
and your service.
    Commissioner Caputo.

                  STATEMENT OF ANNIE CAPUTO, 
        COMMISSIONER, U.S. NUCLEAR REGULATORY COMMISSION

    Ms. Caputo. I would like to add my thanks to the Committee 
for inviting us here to testify. As the Chairman said, it is 
absolutely essential and very much appreciated, the rigorous 
oversight that this Committee brings to the work of our agency.
    There are many diverse views about transformation and the 
changes that the agency should pursue, so I would like to just 
add a couple of my own thoughts just in the area of budgeting 
and transformation.
    Our mission doesn't change, our high level standards of 
safety and security don't change, and our principles and values 
don't change. But our workload and how we manage it will be 
different in the future. To manage a changing workload, I think 
it is necessary to modernize how we budget and allocate 
resources. The Treasury Department's white paper entitled The 
Future of Financial Management states, ``The use of data is 
crucial to the future of Federal financial management.''
    Currently, we use a budget developed 2 years ago to 
formulate a budget for 2 years from now. During that process, 
we use very little data on actual expenditures and performance 
to inform our budget development. This results in a budget that 
is slow to reflect our changing environment.
    The Nuclear Energy Innovation and Modernization Act is a 
strong statement on the NRC's need to reform. The new budget 
and fee recovery structure in NEIMA provides an opportunity for 
us to harness analysis of actual expenditures to better inform 
our budget decisions and rethink how we allocate our resources, 
particularly in light of the fact that we anticipate retirement 
of an additional 13 reactors by the year 2025.
    I look forward to working with the Committee, my fellow 
Commissioners, the NRC staff, and our stakeholders to shape a 
modern, successful NRC.
    Thank you.
    [The prepared statement of Ms. Caputo follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Senator Barrasso. Thanks so much for your testimony.
    Commissioner Wright.

                  STATEMENT OF DAVID WRIGHT, 
        COMMISSIONER, U.S. NUCLEAR REGULATORY COMMISSION

    Mr. Wright. Thank you.
    Good morning, Chairman Barrasso, and Ranking Member Carper, 
and esteemed members of this Committee. Thank you for the 
opportunity to testify today.
    I have been on the Commission about 10 months now, and I am 
grateful for the warm welcome and collegiality of my 
colleagues, as well as the staff's efforts to bring me up to 
speed. I view the NRC as a team and one I am proud to be a part 
of.
    As I promised, I have gotten out of my office and spent 
considerable time walking the halls of the NRC and visiting 
plants. I visited every office on every floor at NRC 
headquarters at least once now. These meetings and visits with 
the NRC staff and our licensees have given me invaluable 
insights into the agency's critical safety mission, their 
priorities, successes, and challenges. I am humbled and 
impressed by the people that I have met, as well.
    I come to this position as a former State regulator, and I 
am, therefore, mindful of the impact regulation has on 
regulated utilities. When I make decisions as a Commissioner, I 
combine that perspective with my dedication to the NRC safety 
mission and the agency's principles of good regulation, 
particularly the principle of efficiency.
    While I am not yet an expert on the NRC's budgeting and 
licensing process, I do see room for improvement in both areas 
when it comes to efficiency. I also know the agency is busy 
analyzing and preparing for changes required by the Nuclear 
Energy Innovation and Modernization Act, so I am also 
interested in how this law will motivate other changes in how 
we do our work.
    I view change--in particular changes how we perform our 
work--as an opportunity. Change is an opportunity to transform, 
innovate, and recalibrate the things we do to achieve our 
important safety mission in the most efficient and effective 
way possible.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Wright follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Senator Barrasso. Well, thank you very much, all of you, 
for your testimony and your service.
    We will start with a couple rounds of questions, and I 
would like to start first with Chairman Svinicki.
    In January, the Commission approved the final rule known as 
the Mitigation of Beyond Design Basis Events. The rule codifies 
a number of existing requirements imposed on nuclear power 
plants following the 2011 Japanese nuclear accident. Would you 
please summarize the key provisions of that rule for us?
    Ms. Svinicki. Thank you for the question, Chairman 
Barrasso. I would note that yesterday I received a 
correspondence from Senators Carper and Whitehouse asking a 
series of questions. We look forward to responding to the 
Committee's questions on the Commission's action on the rule.
    It is not easy to summarize a lengthy rule, but let me 
attempt.
    After Fukushima, the Commission mandated a host of changes 
and reevaluations of the hazards that U.S. plants face. We did 
that through other instruments like immediately effective 
orders and demands for information.
    As a matter of rigor, agencies such as ours typically 
follow that up with a rulemaking process afterward so that 
those measures can go through the Administrative Procedure Act 
process of being promulgated as a formalized rule.
    As laid before the Commission, the rule went beyond the 
measures that had previously been mandated and included a set 
of additional measures that the staff proposed that the 
Commission adopt and make into requirements on the basis of 
what is called our adequate protection authorities under the 
Atomic Energy Act, which do not require an analysis. If we 
invoke adequate protection, there is not a legal requirement to 
do an analysis of the safety benefits and the costs and 
benefits of the new requirements.
    The majority of the Commission, in looking at the 
provisions beyond those already mandated, was not willing to 
adopt or invoke the adequate protection basic summary 
conclusion for the additional measures and indicated that they 
would move forward with the rule with the measures that had 
been mandated and the continuation of the site specific 
evaluation of the flooding and seismic hazard at U.S. plants.
    In addition, the Commission, in 2016, had established a 
center of expertise for the ongoing continual evaluation of 
external hazards to U.S. nuclear facilities. This group has 
been stood up and will contain a library of information where 
we will go out to the USGS, to the climate change experts, and 
others and look at the hazard information as it changes over 
time.
    So, I would depict it as a way to bring visibility and 
focus to new information as it comes in. And of course, we 
would assess that and take action.
    We did have a very severe difference of opinion on the 
Commission over the final rule, and I have deep respect for my 
colleagues who differed on the outcome, but in totality, 
looking at all of the measures that the NRC enacted since 
Fukushima, and again, I had direct and personal involvement 
going all the way back to the accident in 2011, the outcome of 
the Commission majority I think was an acknowledgment of this 
efficiency of the measures in place.
    There was a particular difference of opinion over the 
forward going regulatory treatment of certain of the changes 
and what we call the flex equipment. This is the surplus sets 
of equipment that are now at every U.S. nuclear power plant to 
deal with hazards or events that would go beyond the design 
basis.
    The majority of the Commission felt that the industry's 
commitment previously given to maintain that equipment was 
sufficient, and I know that other members of the Commission 
would have turned that into a regulatory requirement.
    There were other differences, but that was, I think, the 
most pointed difference that we had.
    Senator Barrasso. In October, the EPA withdrew an Obama 
administration midnight rule. The midnight rule, of course, 
would have added unnecessary red tape, in my opinion, to the 
principle method of uranium production. In 2015, the NRC staff 
communicated substantial jurisdictional concerns to the EPA 
about the proposal, and the EPA proceeded despite the concerns 
that the NRC had come up with. These jurisdictional issues I 
think need to be resolved. Accordingly, in 2017 I asked EPA to 
sign a Memorandum of Understanding with the NRC clarifying the 
EPA's regulatory authorities.
    Madam Chairman, could you please provide an update on the 
status of the NRC's engagement on that Memorandum of 
Understanding?
    Ms. Svinicki. My understanding of the current status is 
that upon the withdrawal of the rule by EPA, NRC and EPA staffs 
have been engaging over the renewed interest in the Memorandum 
of Understanding. There are, as you note, I think some 
statutory interpretation differences that are being worked out, 
but the experts do continue to engage on this matter. As a 
matter of fact, I believe there is a meeting that will be held 
yet this month between the EPA and NRC on the MOU development.
    Senator Barrasso. Thanks so very much.
    Senator Carper.
    Senator Carper. Just very briefly to the Chair, quickly, 
how are we doing in terms of retention, attracting new folks to 
come to work at the NRC? How is morale? Just very briefly.
    Ms. Svinicki. Very briefly, I would characterize the 
concern about our demographic shift to more senior workers, 
while we are very, very grateful to have them, and they have a 
lot of expertise, we are realizing now that the front end of 
the pipeline and entry level workers I think I would 
characterize that as an increasing concern for the agency. 
While we wouldn't take a broad brush to it, for myself alone, I 
think it is imperative that we begin to look at strategic hires 
of recent university graduates and things like that.
    I will say, on morale, you know, transformation and change 
is hard. Human beings have a lot of concerns over what it might 
mean for them, so the leadership team at NRC has a strong focus 
on messaging and outreach and communications regarding changes 
that are or might be in the future coming for NRC.
    Senator Carper. All right, thank you.
    Do the other Commissioners agree? If you agree, raise your 
hand. Do you agree with that assessment?
    All right, let the record show four hands. All right, good. 
Thank you very much.
    Question for Commissioner Baran. With the President's NRC 
budget for fiscal year 2020, in your judgment, will the NRC 
have the resources needed to do its job to ensure safety for 
current nuclear reactors and to be ready for the next 
generation of them?
    Mr. Baran. I believe it will. I would just provide a little 
bit of context, though, and say since fiscal year 2014 NRC's 
budget has decreased by 15 percent and our work force has 
declined by 21 percent. That is a huge amount of change in a 
short period of time, so I think we have adjusted well.
    Our budget and staff need to reflect our workload, but I 
share the Chairman's concern that one of the things that has 
been sacrificed in that period of time is entry level hiring. 
We are at a point now where only 2 percent of the people who 
work at NRC are below 30 years old. That is really low, and it 
is an indication, I think, that we are not doing much entry 
level hiring, and we have to get back to that, I think, in the 
near future for the long term health of the agency.
    Senator Carper. OK, thank you.
    To our Chair, you mentioned that Senator Whitehouse and I 
recently sent you a letter regarding the post-Fukushima rule 
that the Commission finalized I think back in January. We 
appreciate your attention to that and your timely response. 
Senator Whitehouse and I are concerned that the changes to the 
final rule made by the Chair may have missed the mark in 
addressing the lessons learned from the Fukushima nuclear 
accident, and we need answers regarding why changes were made 
to the final rule, changes that I think went against the career 
staff's recommendations.
    Just a quick yes or no on this one. I don't ask a lot of 
yes or no questions, but I want to be mindful of my time.
    Madam Chair, did the NRC career staff recommend changing 
the mandatory safeguards against seismic and flooding hazards 
to voluntary ones? Did they recommend that?
    Ms. Svinicki. No, but there were expert staff that had--
they didn't go through the former differing views process, but 
we did have a handful of agency experts that disagreed with the 
proposal as it was laid before the Commission. And I have 
spoken with those individuals who were in disagreement.
    Senator Carper. A follow up to that. Did public comments 
during the rulemaking process ask the Commission to make the 
mandatory safeguards against seismic and flooding hazards 
voluntary?
    Ms. Svinicki. No, they did not.
    Senator Carper. A follow up on the same issue, a follow up 
to Commissioner Baran and maybe Commissioner Burns. You both 
voted against the changes. Would you please take a moment and 
explain your concerns with the final rule? And in your answer 
please verify if you know of any party that asked for this 
change.
    Mr. Baran. Mr. Burns, go ahead.
    Mr. Burns. Essentially, Senator, I thought that the rule as 
proposed, as commented on, and as then offered to the staff in 
final form was a more direct, in fact, a direct and elegant 
solution to the issue that had been identified; that is, 
looking at current seismic and flooding type hazards and 
assuring that they were addressed during the course of a 
lifetime by licensees, and there wasn't, to my understanding, 
adverse comment on that from the external stakeholders who 
would have commented on the rule.
    Senator Carper. All right.
    Mr. Baran.
    Mr. Baran. I think everyone agrees that the flex equipment 
that the Chairman mentioned is the single biggest post-
Fukushima safety improvement, but the equipment doesn't do us 
any good if it is not there and available when called upon, and 
that means protecting the equipment from entirely predictable 
natural hazards. We spent several years, the staff and 
licensees, using the latest science to figure out what are the 
current modern day hazards, flooding and seismic hazards, at 
the power plant sites across the country.
    From my point of view, and I think Commissioner Burns 
agreed with this, it makes sense to protect that equipment from 
those modern understood hazards, and not the old outdated 
hazards. It is the biggest improvement we had. You want to 
protect that equipment.
    Senator Carper. All right, thanks.
    All right, thanks for those responses, and we look forward 
to a second round.
    Thank you.
    Senator Barrasso. Thank you, Senator Carper.
    Senator Capito.
    Senator Capito. Thank you, Mr. Chairman.
    It is nice to see the full Commission here. I want to give 
a shout out to Commissioner Caputo, because we worked together 
on the Subcommittee, so welcome. He says we are confusing him 
because it is Caputo and Capito, but we know what it really is.
    Ms. Caputo. I can keep us straight.
    Senator Capito. I am going to ask a question I think I ask 
every year, and I still don't understand.
    I understand that you are making great strides to right 
sizing the Commission, and I thank the NRC, and that is a 
question that comes up every year, but there is a significant 
amount of carryover funding, which suggests there is a mismatch 
I don't understand. In fiscal year 2017 carryover was $37 
million, at the end of fiscal year 2018. Per your budget, 
carryover from the prior year totaled $40.4 million, with $22.7 
million still wholly unallocated.
    And then again, the request is for more carryover, which is 
described to be in the budget to jump starting licensing around 
Yucca Mountain. But I understand that that cannot be funded by 
a carryover.
    So, could you help me with what do you do with all these 
millions of dollars that you are carrying over, and are you 
overprescribing your budget to allow for a carryover to give 
you some flexibility that maybe your regular budget doesn't 
provide for you?
    Ms. Svinicki. Thank you for that question, Senator. We have 
engaged in previous years on the NRC's efforts to develop and 
end the year with a more accurate figure so that it does not 
have this surplus at the end of the year. There are a number of 
factors that contribute to ending the year without the amount 
of outlay that one predicted. Receiving the budget later, after 
the beginning of the fiscal year, can often be a contributor, 
but we did not experience that this year. So, as of right now, 
being approximately midway through the fiscal year, we estimate 
that we would have about $20 million of carryover on the fee 
base.
    So, as happened with the appropriations bill last year, 
when we had about $25 million, appropriators directed us to use 
$20 million of that as an offset. So, I can't speak for what 
appropriators will do, where we will end the fiscal year and 
what they would do. We have had an effort on improving our 
budgeting and trying to get greater fidelity and end the year 
with less of a surplus. I don't know that we would ever get to 
having it be down to the penny, but we have driven down the 
figure in recent years, and I think we continue to look at what 
we end the year with.
    Senator Capito. Was last year the first year that the 
appropriators had asked you to use that as an offset?
    Ms. Caputo. No, it was not.
    Senator Capito. That is pretty much standard, then? OK.
    The other question I think is with the anticipated 
shrinking number of reactors and the fees associated. You are 
raising the 8 percent annual increase this year, what, 6.5. 
What steps are you making to make sure that that is not just an 
incremental thing over years as we see more of these being 
retired?
    Ms. Svinicki. Well, I think the most prominent change to 
that will be arising out of the NEIMA bill that is now enacted 
law. Of course, it has a number of measures that have 
interrelated effects on the agency's budget, but one of which 
is to create a ceiling for the operating reactor fee. In 
addition, there are other measures that exert budget discipline 
on the agency that arise out of NEIMA.
    I will say that embedding some of that statutory--again, 
those provisions, kind of by virtue of mathematics, affect 
different parts of the budget. We are working to build that 
into our accounting and budgeting systems, so I can't testify 
to the totality of the impact of the provisions. Of course, 
there are a number of provisions on our corporate support costs 
as well.
    I think it would probably take 1 year through the budget 
cycle to have a complete picture of how those provisions impact 
each other, so in future appearances we should be able to give 
you a better sense of that.
    Senator Capito. Commissioner Caputo, I am going to put you 
on the spot here because you have spent years on the other side 
of the dais here. What perspectives could you say becoming a 
Commissioner has changed your view from where we sit to where 
you sit now?
    Ms. Caputo. Well, I think this budget, the 2020 budget that 
is before you now, is my first budget on the Commission, so it 
is an introduction to how the Commission develops its budget, 
and that, I think, largely is what lies behind my remarks about 
the fact that I think the Commission could use data and data 
analytics to a much greater extent to inform our resource 
allocation decisions.
    I think the increase in the fee that you are talking about, 
this year in particular, is driven by the retirement of a few 
reactors. But if you look at a 2-year span, as an example, the 
2020-2018 and the budget before you now, the 2020 budget, six 
plants will have retired, and those six plants would be paying 
in $4.8 million, roughly, in an annual fee.
    So, when we look at the 2020 budget, 6  5 is $30 million. 
But we don't see a decrease in the operating reactors' budget 
in that order; we see a decrease of $5.4 million. So I think 
that is evidence of our struggle to sort of right size in 
advance of the cessation of those fees coming in. And this will 
continue to be a struggle, I think, going forward, but one that 
hopefully the new fee structure under NEIMA will help with.
    Senator Capito. OK. Thank you.
    Senator Barrasso. Thanks so much, Senator Capito.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman. Thank you for 
calling this hearing.
    I want to thank the entire Commission for being here. It is 
impressive to see you all out there. We thank you very much for 
your work.
    I want to follow up on Senator Carper's point in regard to 
the personnel issues. Since fiscal year 2010, there has been 
approximately a 23 percent reduction in the work force at the 
Commission. The past fiscal year saw another decline. I first 
would like to know whether we should anticipate a further 
reduction in the work force, or do we have the right numbers 
now?
    Why don't I ask that question first. What is your game plan 
on downsizing, Madam Chair?
    Ms. Svinicki. We continue to trend down. Again, our 
demographic is we have a very, very senior work force. A 
substantial portion of our employees are retirement eligible. 
Now, many of them stay well beyond their retirement 
eligibility, but it is a growing concern that the front end of 
the pipeline--Commissioner Baran was mentioning a statistic 
that only 2 percent of NRC employees are younger than the age 
of 30, which is an extreme figure.
    Senator Cardin. You are getting to my second question. My 
first question is the size that you are attempting to get to; 
the second is retaining good people. My staff tells me that by 
2023, 42 percent of your work force will be eligible for 
retirement. I know that Commissioner Baran already mentioned 
the 2 percent under the age of 30, which is a very small number 
for any of our work force.
    Put on top of that the general challenge for Federal work 
force today as a result of attacks on the Federal work force on 
the budget and their benefits, as well as the shutdown impact. 
You may have been directly impacted, but you were indirectly 
impacted by the Government shutdown. It has caused a drain of 
some of our best from agencies that are not clear as to the 
future commitment of the Government to their mission.
    I worry that the same thing could be happening at the NRC 
as to whether you are attracting young people to this 
profession. Do they see a future here, and are we challenged in 
maintaining the capacity, moving forward, of the NRC to keep us 
safe and to be at the top of the game internationally on 
regulating nuclear energy?
    We really need to pay a little bit of attention to this, 
and it looks like the fact that you don't have younger 
workers--I know at NSA, by way of comparison, we always are 
concerned that they can bring in the youngest, brightest people 
so they have a pipeline to the future. Are we missing this 
opportunity on the nuclear regulatory side?
    Mr. Baran. I would just say that on the question of the 
overall size of the agency, personally, I think we should get 
to the point of stabilizing at this point. We have had a lot of 
reduction in a relatively short period of time. I do worry 
that, continuing on the track we are on, we are going to have 
problems maintaining our core capabilities, our core technical 
capabilities. I worry about that. Of course, the other issue is 
the lack of entry level hiring, which is significant.
    One of the things we are seeing is retaining. It is harder 
to retain folks because, with a smaller agency, an agency that 
has been shrinking, you don't have the same promotional 
opportunities, the same career enhancement opportunities. We 
see folks leaving--great people, mid-career--who can't really 
advance the way they want to.
    Senator Cardin. So how do we counter this? How do we 
counter this?
    Mr. Baran. Well, the staff is working very hard on that, 
and the Commission focuses on it a lot. It is challenge, but I 
think as long as the budget keeps declining steeply and the 
work force keeps declining steeply, it is difficult to 
counteract that.
    Senator Cardin. I would just urge--Mr. Chairman, we are the 
authorizing Committee. I would like to get a game plan from you 
as to how we can attract the youngest, brightest talent for the 
future into your agency.
    Also, I would think from the appropriators' point of view 
that they also need to have a game plan as to where you are 
heading so that we can try to assist. We understand the size is 
one thing, but not having the brightest minds coming out of our 
universities interested in a career in nuclear safety does 
present challenges for us moving forward.
    One of those challenges, and it might be the right thing, 
but the Nuclear Energy Institute has asked for a self-
assessment, rather than inspection, in regards to some of their 
nuclear activities. We saw that didn't work very well on 
airline safety with Boeing. The question is are we moving more 
toward reliance upon self-assessment rather than the work of 
the Commission in order to keep us safe, a down product of not 
having the capacity because of downsizing and the lack of 
recruitment.
    Mr. Baran. Speaking for myself, I would just say I strongly 
believe we should not head in that direction. I think the role 
of NRC is to set the health and safety standards and to inspect 
to make sure those standards are met. The role of licensees is 
to operate the plant safely. We shouldn't operate their plants; 
they shouldn't be conducting our inspections. That is our job; 
it is a core responsibility of the agency, and we should be 
doing that.
    Senator Cardin. I would just ask the Commission if you 
could just share with us your game plan for attracting the 
professionals that you need moving forward so that we can have 
that in our planning as authorizers and as appropriators. I 
think that would be helpful.
    Ms. Svinicki. Yes, Senator Cardin. We do have a detailed 
work on our strategic work force planning ongoing. We can 
provide an update on where that stands to the Committee with a 
focus on the younger workers.
    Senator Cardin. Thank you.
    Senator Barrasso. Thanks, Senator Cardin.
    Senator Braun.
    Senator Braun. Thank you, Chairman.
    Especially interesting for me to be sitting in on this. I 
am the Chair of the Clean Air and Nuclear Safety Subcommittee, 
so I intend to do more work on this down the road.
    A two-pronged question, and this would be for any of the 
witnesses. No. 1, Purdue University has had research on some 
new technology, and it is with the digital version that has 
been in place in other countries. I am interested in what is 
going to get us across the threshold for using nuclear energy 
for all the pertinent topics that are in front of us, clean 
energy generation.
    Also, what is happening in other countries, because I know 
many other countries have put an emphasis on it, and I feel 
they are going to lead more than us due to the fact that there 
has been gun shyness about pushing forward with nuclear power 
for electric generation.
    In addition to what Purdue is working on, tell me about 
what else is happening, how that is going to lead in to where 
we have more confidence here, and then tell me about the 
competition across the world where they seem to be embracing 
nuclear energy for power generation more than we are.
    Ms. Svinicki. If I may, Senator, I will just begin, and if 
my colleagues want to add to that broad question.
    But I would note that with respect to the modification to 
the Purdue research reactor, I was made aware that the agency 
has completed its review of that amendment and modification to 
that facility, and I think that the completion of that was 
communicated yesterday or may be communicated today to Purdue. 
I knew we were very close to the finish line, but I didn't know 
what we had actually concluded our work on that.
    On your broader questions about the global energy picture, 
I think it doesn't necessarily fall squarely in our domain. 
What we do is look at nuclear safety and security regulation. 
The United States is generally considered to have an extremely 
strong and set a high standard for nuclear safety and security.
    I know that there are countries that have looked closely, 
such as Spain, that has adopted, I think, a near replica of the 
U.S. nuclear safety regulations whole cloth. We do continue to 
try to advance global objectives on nuclear safety, not so much 
the penetration of the technology for energy production, but 
setting a strong, high level of expertise on the nuclear safety 
issues.
    Mr. Baran. I agree with all that. I would just add on the 
new technology side, really, our role is licensing, so it is 
about having a good, efficient licensing process for new 
technologies, whether it be non-light water reactor 
technologies or innovations and fuel in other areas, so there 
is a lot of focus right now on that at NRC to make sure that we 
have the technical capabilities to do those reviews and have a 
good process in place and that we have the right standards.
    If you take the example of non-light water reactors, all 
the existing fleet in the U.S. is light water reactors. Our 
regulations were really written for that. One of the big 
efforts at NRC now is adapting those regulations for other 
technologies so that we can have efficient and thorough and 
effective reviews of newer technologies unlike anything we have 
currently deployed across the country.
    Mr. Burns. One thing I might add is that we do participate 
in international forums through the OECD Nuclear Energy Agency 
and also the International Atomic Energy Agency that are 
looking at, for example, on the small modular reactors or 
advanced reactors technologies, and there have been other 
cooperative efforts so that we learn from folks who are 
building, say, in Finland or France or in China through what is 
called the Multinational Design Evaluation Program, so I think 
those have been of benefit to us as regulators because it is 
really about what are the approaches for regulation; what types 
of things are they finding that can have learnings for us, and 
I encourage us to continue in those types of fora.
    Ms. Caputo. With regard to advanced designs, I haven't been 
to Purdue, so I am not familiar with what Purdue is doing, but 
I have visited Texas A&M and the University of Wisconsin, and 
my observation from both of those visits is the universities 
are really conducting a lot of exciting work in developing both 
accident-tolerant fuel technology and advanced reactor designs. 
So I think there is a fair amount of exciting work being done 
in our universities to lay the foundation for ultimately the 
designs that come to the Commission for review.
    Mr. Wright. Thank you, Senator. I agree with everything 
that you have heard, but I think there is another leg to this, 
too, and that is that if we are not efficient in our regulatory 
scheme at the NRC and get things done efficiently as well, we 
are possibly seeing ourselves around the world where other 
technologies are being sold, which would be a DOE or State 
issue and obviously a congressional issue, and that could have 
long term security impacts on our country, too. So, we have to 
do our part at the NRC to make sure that we are putting things 
in place for these new technologies to make them efficient so 
we can get them through the regulatory scheme effectively and 
efficiently.
    Senator Braun. Thank you.
    Senator Capito [presiding]. Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman.
    Do any of you doubt that climate change is causing sea 
levels to rise around the globe and along our shores?
    [No audible response.]
    Senator Whitehouse. Let the record reflect no doubts. OK.
    Does anybody contest that post-Fukushima it has been 
established that flooding interferes with nuclear plant 
operations? Pretty obvious statement, isn't it?
    [No audible response.]
    Senator Whitehouse. OK, all agreed, let the record reflect.
    I represent a coastal State. For those of you aren't from 
coastal States, let me let you know that we are all coastal 
States looking at dire and uncontested and best science 
predictions of significant sea level rise and harm to our 
coasts, just so you know. So it is from that background that I 
wonder about the recent chain of events along this timeline.
    In November 2015, the NRC proposed its comprehensive post-
Fukushima flooding preparation rule with full agreement of the 
Commission at the time. It is called the Mitigation of Beyond 
Design Basis Events Rule, and our Ranking Member just spoke 
about it. It went to public comment, and in 2016, after 
receiving public comments, the staff issued a draft final rule 
with mandatory requirements for flood preparation.
    At this time, the NRC Commission had two Democrats and one 
Republican appointees, and you couldn't get three votes, so the 
order wasn't finalized, but the staff recommendation was there. 
A month later, Commissioner Svinicki was designated Chairman. 
The Commission still did not move forward on a final order for 
the rule.
    In July 2017, the Nuclear Energy Institute sent this 
letter, which I ask unanimous consent to be made a part of the 
record----
    Senator Capito. Without objection.
    Senator Whitehouse [continuing]. Saying that all of its 
concerns had been addressed, and it was OK to go forward with 
the rule; still mandatory.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Senator Whitehouse. In May 2018, after all this closed, two 
new Republican appointees joined the Commission, giving 
Republican appointees a three to two majority, and in January 
2019 NRC weakened the rule, made it voluntary. The NRC has 
acknowledged that there were not any public comments calling 
for this change.
    Now, I am somebody who has worked to get you more 
authority. I have been a prime mover on two pieces of 
legislation to promote innovation and nuclear technology. I am 
the cosponsor, with our acting Chair, of another one that is 
working its way through the Senate right now.
    It is going to be a real problem for me to continue to 
trust in all of you if either of two things is true: one, there 
is some kind of an industry back door into the Commission that 
gets a change like this done after the public comment period is 
closed, without any public comment, and apparently outside of 
the APA public process. That would be a very unfortunate set of 
events, probably also illegal. So I think this Committee is 
entitled to an answer as to what exactly took place that caused 
that.
    The second is, you don't take sea level rise seriously. You 
don't think this is a real risk for the nine nuclear plants 
that are within 3 kilometers of our coast or the four that have 
been deemed susceptible to sea level rise and flooding. That is 
not acceptable either.
    So I see this event as a potentially very significant 
bellwether as to the trustworthiness of this Commission, and I 
have been trusting this Commission. So I need some serious 
answers and we are going to follow up. We sent this letter, 
Chairman Carper and I, which I would ask to be put into the 
record as an exhibit. We need to get to the bottom of this.
    If there is some back door where industry people can come 
in and fix a rule without going through the APA process, that 
is just plain wrong. And if the reason for this is that you 
don't take flooding and sea level rise seriously, that is just 
plain wrong. The first is wrong procedurally and legally; the 
second is wrong morally and factually.
    So I intend to pursue this, and I am just putting you on 
notice that I think this is really serious. And I say this as a 
person who has trusted you with very important new 
responsibilities.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    Senator Capito. Is there any reaction?
    Ms. Svinicki. Senator Whitehouse, I look forward to 
responding to the series of questions that you provided to the 
Commission yesterday. Thank you.
    Senator Whitehouse. We look forward to hearing your 
response.
    Senator Capito. Senator Markey.
    Senator Markey. Thank you, Madam Chair.
    The Pilgrim Nuclear Power Plant is set to close in June, 
and I know the Commissioners are not going to answer some 
specific questions as related to matters that are pending 
before the NRC, but we need more clarity.
    Chair Svinicki, does the NRC have the statutory or 
regulatory authority it needs to make sure that licensees bear 
all of the financial costs of decommissioning and site 
maintenance?
    Ms. Svinicki. Thank you, Senator Markey. I believe that the 
decommissioning funds that are collected under our authority 
are principally for decommissioning of the radiological hazard. 
There may be amounts beyond that that State authorities require 
to be collected, and often these funds are comingled in the 
decommissioning fund.
    Senator Markey. Well, obviously the communities, including 
Plymouth, need assurance that all the financial costs are going 
to be borne, and they don't want to get stuck footing the bill 
if costs go up, or businesses go under, so the proposed 
decommissioning rulemaking at the NRC would do even more to cut 
NRC approval and public comment out of the already flimsy 
decommissioning process, including by automatically granting 
exemptions to safety regulations.
    Commissioner Baran, do you think the proposed 
decommissioning rule might tilt the balance of power farther 
toward nuclear plant operators and away from the independent 
NRC staff?
    Mr. Baran. I think the proposed rule needs a lot of work. I 
think we need to produce a balanced rule that considers the 
interests of a broad range of stakeholders, including States 
and local governments. I think in terms of who is making the 
big decisions about decommissioning; I don't know that the 
proposed rule changes that much. Right now that is tilted 
heavily toward the licensees. NRC is pretty hands off when it 
comes to decommissioning. We, of course, do safety inspections, 
which are important, but licensees get to make most of the 
major decisions, and the proposed rule really wouldn't change 
that.
    Senator Markey. And that is my concern, that the nuclear 
industry wants the NRC to turn a blind eye, but we actually 
need more independent oversight, not less.
    The Nuclear Energy Institute is pushing for major changes 
to the reactor oversight process, the cornerstone safety 
program at the NRC. The industry wants to inspect and assess 
itself more often, rather than allow the NRC to conduct 
independent inspections. If adopted, these changes would make 
inspections like a take home exam and leave the NRC just hoping 
that plants don't cheat.
    Chair Svinicki, plants often do self-assessments before the 
NRC comes in for an inspection. Do the NRC inspectors find 
issues that the plants have missed?
    Ms. Svinicki. Yes, they do sometimes.
    Senator Markey. Yes, you do, because the NRC does 
frequently uncover issues that the operators don't find 
themselves, and these could be problems that would be totally 
ignored if the nuclear industry could self-assess.
    One of the proposed changes is to take less of a look at 
``white findings,'' which are safety issues that are less 
obviously severe than yellow or red findings, but white 
findings are incredibly important. Following a series of white 
findings, Pilgrim Nuclear Power Station in Plymouth was placed 
in the lowest active safety category after NRC inspectors 
followed up and found major safety issues. This designation 
triggered additional inspections and oversight, ultimately 
helping Pilgrim operate more safely and improve its rating.
    Madam Chair, if the proposal to ignore more white findings 
was adopted, would Pilgrim have gotten a closer look from NRC 
inspectors?
    Ms. Svinicki. I think it is difficult for me to conclude 
one way or another on that, respectfully. It is a certain 
number of findings of a certain color that lead them to move to 
different performance categories, and I can't, off the top of 
my head, kind of recreate what those triggers were back in 2014 
and 2015.
    Senator Markey. Well, let me ask you, Commissioner Baran, 
does discounting low risk findings mean we might miss higher 
risk issues down the line?
    Mr. Baran. Yes, I think white findings are very important 
for that. Since the beginning of the reactor oversight process, 
white findings, and even green findings, have been leading 
indicators of potentially more safety significant problems at 
plants, so Pilgrim is a good example of that; it got into 
column four with three white findings. There were no yellows, 
there were no reds; it ended up there on whites. And it 
absolutely needed to be in column four. I think everyone agreed 
that was a right safety outcome.
    So, if we moved in the direction of really reducing the 
significance of white findings, I would have significant 
concerns about that.
    Senator Markey. And I have that concern as well, because 
the NRC should not be giving take home exams to nuclear power 
plant operators, because the tendency on a take home exam is to 
always give yourself an A+, and obviously the history of this 
industry tells us that that temptation too often has been 
succumbed to by industry participants. So, I just think that we 
have to make sure that the industry doesn't cut corners, 
doesn't undermine public safety, so I am going to be following 
this very closely.
    I thank you, Madam Chair.
    Senator Capito. Thank you.
    Senator Van Hollen.
    Senator Van Hollen. Thank you, Madam Chairman.
    Thank all of you for your testimony today. As we have 
heard, the NRC plays a vital role in regulating the domestic 
nuclear industry by ensuring the secure and safe use of nuclear 
materials. That is the goal. You also play an important role in 
regulating nuclear exports, exports abroad, by ensuring that 
U.S. nuclear materials and technology do not fall into the 
wrong hands. In other words, you are part of a mechanism that 
is supposed to pursue rigorous due diligence when it comes to 
these export controls.
    I am concerned that, when it comes to Saudi Arabia, this 
Administration is severely testing the strength of the 
alignment between the NRC's role, the DOE's role, and the goal 
of a nonproliferation policy. Reportedly, and I think they have 
confirmed they are pursuing a nuclear cooperation agreement 
with Saudi Arabia, which has enforced the lowest standard of 
international safeguards, a country whose leaders have loosely 
talked about acquiring nuclear weapons and a country that we 
know consistently flouts international norms. And now this 
Administration wants to do nuclear business with Saudi Arabia.
    Last week, DOE confirmed that the Administration has 
deepened nuclear cooperation with Saudi Arabia. Secretary of 
Energy Perry acknowledged that the Department of Energy has 
issued seven undisclosed part 810 authorizations to American 
companies to transfer unspecified nuclear technology and know-
how to Saudi Arabia. In my view, it doesn't appear that the 
Administration is exercising due diligence.
    I know the NRC is not the lead agency here, but under the 
statute and regulations you play a consulting role. In fact, it 
is required that DOE consult with you on these, so my question, 
Madam Chairman, is when did the Department of Energy consult 
with the NRC on issuing these seven part 810 authorizations?
    Ms. Svinicki. Thank you, Senator. As you have described, 
under the Atomic Energy Act, the NRC does have a consultative 
role, it is not a concurrence role; and again, it is not an 
opinion on U.S. foreign policy. We have a consultative role 
under the law because, as you note, should the U.S. get to a 
point where they are exporting components and nuclear 
materials, the NRC is the central export licensing authority 
for that.
    The NRC's consultative role I would generally describe as 
something that they are looking at whether matters of law and 
under an 810 or whether or not you could effectuate the export 
licensing, should you get to that point, so it is a narrow 
consultation on some matters of expertise of the agency, but it 
differs from our role in the----
    Senator Van Hollen. No, Madam Chairman, my question was not 
what is the nature of your role. You have a role. My question 
was when did the Department of Energy consult with the NRC with 
respect to the part 810 authorizations to Saudi Arabia.
    Ms. Svinicki. I don't have that answer for you today, 
Senator. I would need to get back to you.
    Senator Van Hollen. I would like you to get back as soon as 
possible. I mean, these 810 authorizations were apparently kept 
secret, and I must say I am surprised. Were you involved in the 
consultation?
    Ms. Svinicki. In general, since the role is narrow----
    Senator Van Hollen. I mean specifically on the 810 
authorizations.
    Ms. Svinicki. Members of the Commission. This is a 
delegated staff process.
    Senator Van Hollen. Were any of you individually involved? 
Nobody at the table was part of that 810 consultation process.
    All right, so then you wouldn't know when it took place. I 
see.
    I must say that is staggering. So you don't know whether or 
not the NRC raised any concerns as part of this consulting--I 
know you don't have sign off authority, but none of you at this 
table know whether the NRC raised any concerns about entering 
into these 810 authorizations.
    Ms. Svinicki. I do not.
    Senator Van Hollen. OK.
    Madam Chairman, I would request that you get this 
information as soon as possible. This just came to light. You 
have a statutory and regulatory role to play here, and I have 
to say it is astounding that not a single one of you is aware 
of whether, when, and what role the NRC played in that 
particular authorization.
    Senator Capito. Well, if there are no more questions for 
today--oh, yes, Senator Carper.
    Senator Carper. I want to come back to the Nuclear Energy 
Innovation and Modernization Act from when we talked about it 
earlier in the hearing. My question for you, just a little bit 
different, could you all take a moment and tell us how you 
believe NEIMA implementation is going, and will the changes 
help the advanced nuclear technologies, and do you have any 
concerns with implementing any of those new changes?
    Madam Chair.
    Ms. Svinicki. If I may start, Senator Carper.
    Senator Carper. Please.
    Ms. Svinicki. Candidly, with Congress passing it in 
December and its signature in January, it is candidly off-cycle 
from the development of the fiscal year 2020 budget that lies 
before the Congress right now. That being said, we moved out 
very quickly on it in January to do kind of a diagramming of 
all the different provisions, and it is our assessment today, 
based on where we are, that with a shifting of some priorities 
and other things we are confident that within the budget 
request that pends before you, even though we didn't have NEIMA 
enacted at the time that we formulated that request, we are 
confident that we could perhaps reprioritize a bit within 
fiscal year 2020 activities in order to accommodate the NEIMA 
requirements under the budget we have.
    As I had mentioned to Senator Capito, there are a number of 
provisions that are interrelated by their mathematical effect 
on our budget. We are still working to run some scenarios and 
have a better sense of how all of those provisions will work in 
concert with each other. It will probably take one full budget 
cycle before we could come back to you in an informed way and 
say it creates a significant downward pressure here, but offers 
relief here.
    So, certainly, we would keep the Committee informed as we 
implement, we have feedback that would be of utility and 
informing the Committee about how we are doing on it. It is a 
little bit early days right now. That would be my 
characterization of where we are.
    Senator Carper. Anybody have a different view or feel a 
need to amplify on that?
    Mr. Baran. The only thing I would add just specifically on 
advanced reactors, I think probably the main provision under 
the statute on the advanced reactors is having NRC do a 
rulemaking that would be a rulemaking that could cover any of 
the advanced reactor technologies, something that is not 
technology specific but rather, more of a performance based 
approach that would cover any of the technologies.
    That is very much consistent with where the staff had been 
moving. The staff had already proposed to the Commission a 
rulemaking of that sort, so on the advanced reactor side I 
think the vision expressed in the bill that became law and the 
vision kind of at NRC are very much consistent.
    Senator Carper. All right, thanks.
    I have a last question, a different question. I just want 
to ask you for advice, and we will start with you, Commissioner 
Burns.
    Like Senator Whitehouse, I live in a coastal State. Our 
State is the lowest lying State in America. The seas are 
rising, my State is sinking, so we have a huge concern about 
sea level change, climate change.
    It was not long ago roughly 70 percent of the non-carbon 
electricity that was generated came from nuclear. I am told we 
are now down to about 60 percent of the non-carbon electricity 
generated comes from nuclear. We are seeing more wind, we are 
seeing more solar, which is a good thing.
    Like the Chairman, I have a longstanding interest in making 
sure that we continue to address climate change, and we do it 
in ways that are cost effective and safe. Give us, each of you, 
just a very brief word of advice on what this Committee can do 
to make sure that the nuclear industry, rather than continue to 
diminish in terms of its contribution to carbon-free 
electricity, gets to increase it. Please.
    Commissioner Burns.
    Mr. Burns. Thank you, Senator Carper. I think, again, it is 
looking across this span of our history as an agency, and even 
going back into the development of civilian nuclear power. One 
thing is maintaining the integrity of the institutional 
integrity that we have, that we have a strong regulator, an 
independent regulator. That is the international norm, and in a 
way, when we were created, we created, in many respects, what 
became the international norm for regulation through the 
Convention on Nuclear Safety.
    I think, again, your role in terms of oversight for us, in 
terms of holding us accountable through hearings and through 
the process is important, and you also complement that by 
looking into things like research and development that is 
undertaken by DOE, by private industry. Those things I think 
continue to be the most important things that I think you can 
do.
    Again, I would say one of the interesting things about 
working at this agency for many years has been that, across 
time, we call it a learning organization, using this word 
transformation, it is continually to think about how we do our 
work and how we can do it better, more effectively. I think 
that is the challenge for you, to keep pushing at us.
    So those are just some brief thoughts.
    Senator Carper. Mr. Chairman, I know my time has expired, 
but would it be possible if any of the other Commissioners who 
wanted to comment on that question, just to say a few words?
    Senator Barrasso [presiding]. Please.
    Senator Carper. How about our newest member.
    Mr. Wright. I agree with everything that you have heard. I 
do think that right now we are going through change, 
transformation. That is the word that you are hearing in the 
paper that is before us.
    But if we don't do things within our agency to keep ahead 
of the curve and be prepared for what the future is going to 
hold, regardless of which direction it goes, and that is kind 
of what the agency is looking at, then we are going to cede 
ourselves to somewhere we don't want to be. So we need to be 
prepared for anything that comes along, especially making sure 
that we have the ability for new technologies to be licensed in 
this country that can be sold around the world.
    Senator Carper. All right. Thank you, sir.
    Ms. Caputo.
    Ms. Caputo. I think one thing that I would add is just the 
importance of the NRC conducting predictable and timely 
decisions, because I think a lot of companies that are looking 
at advanced reactor technology are not traditional nuclear 
utilities and to a great extent, if we are perceived to be 
slow, untimely, not predictable, it will have drastic impacts 
on the nature of their investment and their business prospects 
for proceeding. So, I think there is a great attention toward 
making sure that we take risk informed actions and that we do 
it in a timely fashion in order to make the regulatory process 
as predictable as possible.
    Senator Carper. All right, thank you.
    Commissioner Baran.
    Mr. Baran. I don't know that I would have too much to add. 
I agree with Commissioner Burns that your focus on the work we 
are doing and on safety is so critical, because it is the 
foundation for everything. You know, whether it is about having 
the plants continue to operate that are there or having new 
plants come online, safety is just key to all of that, and your 
focus on that is so appreciated.
    Senator Carper. Thank you.
    Madam Chair.
    Ms. Svinicki. Well, I agree with the perspectives of my 
colleagues. I think I am increasingly daunted by how hard 
change is in large organizations. If we were manufacturers, we 
could shut down the line, and we could retool, but our product 
is really decisions and regulatory outcomes, and what you are 
asking people to do at every level in the organization is to 
think differently about things, to be open to innovation and 
new technology.
    Now, we do want to get them improved tools to do what they 
do, maybe better ways to monitor their program activities and 
metrics, and we are making a lot of IT investment, and we are 
trying to equip them. Because if you are asking people to 
change, you have to give them the tools to go about and do 
things differently or more efficiently. But when an agency has 
had such a strong performance record regulating one type of 
reactor and doing it one way, it is a hard thing to surmount 
how accustomed people are to reflexively, without even thinking 
about it, kind of picking up something and going about it the 
same way, so hats off to our leaders.
    We do have a lot of mid-career employees who I think are 
bringing strong energy to this. They want to work there 15 
years from now, 20 years from now, and they are actually, I 
think, a little excited to say, hey, I will get to put my 
imprint on how we do things they have inherited. Things like 
the reactor oversight process that has been mentioned here, 
that was designed 20 years ago, and they want to have an 
opportunity to take what we have learned in the intervening 
years and make NRC not less than it was or diminished, but just 
the NRC that is going to continue that they want to be working 
at 20 years from now.
    Senator Carper. All right, thank you.
    Speaking of change and transition, I would just say to 
Stephen Burns--what do they say in Hawaii, aloha, whether you 
are coming or going? In the Navy, we say fair winds and a 
following sea. Thank you for your service. God bless you and 
your family.
    Thank you.
    Senator Barrasso. Just a couple more questions.
    Chairman Svinicki, the Nuclear Waste Policy Act required 
the Department of Energy to begin receiving spent nuclear fuel 
in 1998. American taxpayers now pay I think over $2 million of 
legal costs every day because Yucca Mountain is not 
operational. The NRC's budget requests $36 million to hire 77 
staff to receive the Commission's nuclear waste disposal 
program in terms of reviving the program and moving along with 
it. What can the Commission accomplish with that funding if 
Congress is able to appropriate the money?
    Ms. Svinicki. Thank you. The increment of funding that we 
have asked for would be allocated principally toward the 
resumption of what is called the adjudicatory hearing. There 
are over 300 what we call contentions or disputed issues on the 
Yucca Mountain license application, and we need to have a 
hearing infrastructure, we need to have hearing judges and 
staff.
    As has been noted, this project for NRC has been dormant 
now for nearly 10 years, or it would be 10 years when the 
fiscal year 2020 budget is put in place. We have lost a lot of 
people; we have lost a lot of knowledge and expertise. We have 
good experts. I think we could reacquaint them with the record 
and try to have them begin to participate fully in this 
activity, but there would be a lot of capability and 
infrastructure to be restored, and the funding we have 
requested would be put to that purpose.
    Senator Barrasso. One last question. You do a monthly 
report on the status of the NRC, the licensing actions, the 
budget. I have recently reviewed I think your 26th monthly 
report. I think the report would benefit from some redesigning, 
maybe for clarity and for some usefulness, and I just wondered 
if you and your staff would work with me and my Committee staff 
to revise the format and the content of the monthly report, if 
that is something we can work on.
    Ms. Svinicki. Yes, Chairman Barrasso, we would welcome an 
opportunity to try to better meet the Committee's information 
needs in that report, which has become a bit, ponderously long 
and cumbersome. We seek only to provide you with something that 
is beneficial.
    I would note that we also have legacy reports that I think 
Senator Voinovich may have initiated, and if, as a part of 
that, we could propose to you any combination that would make 
sense. We send you committee reports on different frequencies, 
on different topics that have simply accumulated over the 
course of the Committee's request to the agency, and there may 
be some rationalization, and we could result maybe in an 
improved product on more than just the monthly report.
    Senator Barrasso. That would be very helpful.
    I am grateful to all of you for your testimony, especially 
Commissioner Burns. Thank you for your long years of service to 
our Nation. It is bipartisan gratitude for all the work that 
you have done.
    If there are no further questions, members may submit 
follow up questions for the record over the next couple of 
weeks. The hearing record will therefore remain open for 2 
weeks.
    I want to thank all of you for your time and your 
testimony. The hearing is adjourned.
    [Whereupon, at 11:26 a.m. the Committee was adjourned.]

                                 <all>
</pre></body></html>
